                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         We received an allegation that data in the subject's1 M.S. thesis may have been fabricated. We
         referred an inquiry and then an investigation to the              We received the report of the
         investigation committee and the cover letter from the University. The committee agreed that
         there was no preponderance of the evidence that supported arl allegation of fabrication by the
         subject, and therefore agreed that there was no preponderance of evidence that research
         misconduct had occurred. The University adjudication official agreed with a finding that no
         research misconduct had occurred. We concurred with the University's conclusion but did ask
         that they take action to improve the research record retention procedures.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
